<html>
<title> - ASSESSING THE PROGRESS OF PERFORMANCE MANAGEMENT IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 106-835]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-835

  ASSESSING THE PROGRESS OF PERFORMANCE MANAGEMENT IN THE DISTRICT OF 
                                COLUMBIA

=======================================================================


                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
        RESTRUCTURING AND THE DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION


                               __________

                            OCTOBER 3, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs




                    U.S. GOVERNMENT PRINTING OFFICE
68-241 cc                   WASHINGTON : 2000

_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                  GEORGE V. VOINOVICH, Ohio, Chairman
WILLIAM V. ROTH, Jr., Delaware       RICHARD J. DURBIN, Illinois
JUDD GREGG, New Hampshire            ROBERT G. TORRICELLI, New Jersey
                  Kristine I. Simmons, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                     Julie L. Vincent, Chief Clerk




                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1

                               WITNESSES
                        Tuesday, October 3, 2000

J. Christopher Mihm, Director, Strategic Issues, U.S. General 
  Accounting Office..............................................     3
Hon. Anthony A. Williams, Mayor, District of Columbia, 
  accompanied by John Koskinen, Deputy Mayor and City 
  Administrator..................................................     6

                     Alphabetical List of Witnesses

Mihm, J. Christopher:
    Testimony....................................................     3
    Prepared statement...........................................    15
Williams, Hon. Anthony A.:
    Testimony....................................................     6
    Prepared statement...........................................    36

 
  ASSESSING THE PROGRESS OF PERFORMANCE MANAGEMENT IN THE DISTRICT OF 
                                COLUMBIA

                              ----------                              


                        TUESDAY, OCTOBER 3, 2000

                                       U.S. Senate,
       Oversight of Government Management, Restructuring,  
                 and the District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich presiding.
    Present: Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning. I am going to try to roll 
along here because we have been told we have a vote at 10:30. 
So, I will try to move it along as fast as we can. I would like 
to thank the Mayor and Mr. Mihm for being here today. Today we 
are discussing the progress of performance management in the 
District of Columbia. Again, Mayor, welcome. Christopher, nice 
that you are here.
    I think you all know that the Subcommittee held a hearing 5 
months ago to discuss the results of the fiscal year 1999 
performance accountability report and to discuss the 
performance goals laid out for this year. Today we have invited 
the Mayor back to report on the progress made by the District 
in achieving its performance goals for this year. It is 
interesting that the District's fiscal year just ended on 
September 31, so it is the second-year over with for you, 
Mayor.
    The General Accounting Office was tasked with auditing a 
sample of the city's performance goals to evaluate the city's 
progress, and Chris Mihm of GAO is here today to report the 
results and to submit any recommendations GAO may have to 
improve how the city measures its performance and, more 
importantly, how the city uses performance information to 
improve services for the District residents.
    Since our previous visit with the Mayor, there has been a 
number of improvements made in the Nation's capital. The D.C. 
Financial Control Board recently announced that the city is 
able to meet short-term and long-term borrowing needs. In June, 
the District voted to change the structure of the D.C. Board of 
Education in order to make the city's education system more 
accountable to the Mayor.
    The Metropolitan Police Department has shifted its manpower 
in order to get more officers on the street. The D.C. Tuition 
Assistance program received thousands of applications from 
students now eligible to take advantage of the educational 
opportunities throughout the country. And that program, Mayor, 
has had a dramatic impact on the number of youngsters wanting 
to go on to college in the District and it really makes me feel 
very good and I am sure that it makes you feel very good, also.
    The U.S. Attorney's Office is diligently working to promote 
cooperation between the various law-enforcement agencies in the 
District and we are making some real progress on that. I am 
anxious to get a report back on how that is finally going to be 
worked out. Most recently, the Mayor has hired John Koskinen, 
who we welcome today, to concentrate on the day-to-day 
operations of the city. And I think the Mayor understands that 
you are only as good as your team and the better your team, the 
better job that you do. We welcome the addition of Mr. Koskinen 
to your management team.
    Despite these signs of progress, the troublesome headlines 
persist. Among them: Court Takeover of D.C. School Busing 
Possible; District Audit Finds Illegal, Wasteful Contracting; 
12 D.C. Schools Lack Certified Food Workers; DPW Takes Years to 
Start Road Projects; City Fails to Get Paychecks to 150 Teens; 
A Year After Promises, Parks in Disarray; Prisoners Languish as 
Backlogs Get Worse; and GAO Study Faults D.C. Child Care.
    You have those kinds of headlines--there are still some 
things that need to be done. I think it is clear to all of us 
that we have an interest in the revitalization of the District 
of Columbia that Mayor Williams has made. And I think it is 
very important for everyone to realize that Mayor Williams has 
made significant improvement in the health of the city and its 
image. But there remains a long road ahead and I would like to 
again say that this Subcommittee is committed to helping the 
Mayor make Washington the ``shining city on the hill'' that all 
Americans want it to be.
    Just last week in our Governmental Affairs Committee, 
Mayor, we reported out a number of bills that will assist you 
in improving the health of our Nation's capital. The Southeast 
Federal Center Public-Private Development Act will allow the 
city to begin the long-awaited effort to revitalize the 
Anacostia waterfront, located less than a mile from the U.S. 
Capitol. The D.C. Receivership Accountability Act will 
establish lines of communication between the Mayor and the 
receivers and subject the receivers to an independent annual 
audit.
    The D.C. Performance Accountability Plan Amendments Act 
that Senator Durbin and I introduced at the request of the 
Mayor will improve upon the District's process for measuring 
and reporting on its performance. Mayor, we think those things 
are going to get done by unanimous consent. So, they will go 
into operation. The full Committee also approved the 
nominations of two D.C. Superior Court associate judges to fill 
vacancies on a bench that is in desperate need of assistance. 
The District's fiscal year 2001 appropriation has been approved 
by both the Senate and House and is currently in conference 
committee.
    In addition to providing any assistance the Mayor may need 
to improve the services of the District, the role of the 
Subcommittee is to oversee the Mayor's progress in implementing 
the various programs developed to improve the city's 
performance. In that regard, I am interested to hear today how 
the Mayor plans to integrate the numerous performance documents 
he introduced at the hearing last May so that, first of all, 
the citizens are satisfied; second, the agency managers know 
exactly what is expected of them; third, reform is 
accomplished; and finally, congressional standards are met.
    At the May hearing, Mayor, you made it clear that your 
citywide strategic plan would be the focal point of the 
District's performance management system, the source of all 
other performance documents. However, after reviewing the 
city's current system, GAO found the citywide strategic plan is 
better suited as a broad, long-range plan for directing the 
city, especially given the fact that the citywide strategic 
plan is evaluated only on a biannual basis. GAO found that the 
annual performance accountability plan is a superior guide 
regarding day-to-day, month-to-month, and year-to-year 
performance since it is subject to continual oversight and is 
updated on an annual basis.
    The General Accounting Office will make more observations 
and recommendations and raise a number of concerns this morning 
and I would like to take this opportunity to ask the Mayor to 
respond to the GAO testimony point-by-point as a follow-up to 
this hearing. You do not necessarily have to do it today, but I 
would like to have you look at those recommendations that they 
make and get back to us on how legitimate and fair you think 
they are and how you intend to respond to them. I think they 
made some insightful observations and I want to make sure that 
your office has acknowledged their findings and recommendations 
and will consider integrating them into your own performance 
management system.
    I close my opening statement by noting that I think the 
Mayor has done a great job of getting this beautiful city back 
on its feet and I commend him on his progress so far. However, 
it is time for Congress to start seeing more positive results 
and it is time that we begin to see a local government that is 
capable of managing itself without the constant meddling of 
this Congress. The District's past message of ``change has been 
slow so far, but big things are expected in the near future'' 
must yield some clear, verifiable results.
    On that note, I look forward to your testimony to hear what 
the District has accomplished since our last meeting.
    I now would like to call on Christopher Mihm from the 
General Accounting Office for his opening statement.

   STATEMENT OF J. CHRISTOPHER MIHM,\1\ DIRECTOR, STRATEGIC 
             ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Mihm. Thank you, Mr. Chairman. It is, of course, a 
great pleasure and an honor to be here today to discuss 
performance management in the District of Columbia. We share 
certainly the sentiments that you stated in your opening 
statement; that after nearly 2 years in office, Mayor Williams' 
administration has made considerable progress in making the 
management of the District Government more results-oriented. 
The Mayor has clearly demonstrated his personal commitment to 
transforming the culture of the District Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mihm appears in the Appendix on 
page 15.
---------------------------------------------------------------------------
    However, cultural transformations do not come quickly or 
easily. Thus, as is to be entirely expected, improvements in 
the management and performance of the District Government are 
still very much a work in progress. In the interest of brevity, 
I will hit the highlights of my written statement by covering 
three general points this morning. First, in comparing the 
management practices used by the District to those of high 
performing organizations, it is clear that the Mayor's 
performance management system contains many, but not all, of 
the elements used by those organizations.
    On a positive note, the city has a strategic planning 
effort that has generated largely results-oriented goals and 
measures that show what the District wants to achieve. However, 
the District needs to create processes for ensuring that the 
performance information it generates is credible for 
decisionmaking and accountability. Without these processes, 
neither the Mayor nor other key decisionmakers can know for 
certain whether existing goals were met and, if not, how 
performance can be improved.
    Second, the District has opportunities to better align its 
efforts to ensure that it is sending District employees, 
managers, citizens, Congress, and others, consistent messages 
about the results the District wants to achieve, how it will be 
done and how progress will be measured. High-performing 
organizations know how the services they produce contribute to 
achieving results. In fact, this explicit alignment between 
day-to-day activities and broader results to be achieved is one 
of the defining features of a high-performing organization.
    This alignment is important to ensuring that the services 
that government provides contribute to results that citizens 
need and care about. It is also important to show front-line 
employees the vital role they have in achieving the broader 
organizational results that the District is trying to achieve.
    In that regard, we found that a more complete integration 
of the goals in the Mayor's strategic plan, scorecards and 
performance contracts with the annual performance plans and 
reports provided to Congress is important to ensuring both the 
Congress and the District have a common understanding of the 
results that the District wants to achieve, how it plans to 
achieve those results and the status of its efforts. In the 
absence of this common understanding, Congress is hard-pressed 
to conduct oversight and determine how it can best help the 
District.
    Third, the District could improve the usefulness of the 
information it provides to Congress by better ensuring that 
it's most significant performance goals are included in both 
the annual plans and reports that the Mayor is to send to 
Congress each year. As you know, the Mayor is only required to 
report on the goals that were in the performance plan that was 
originally sent to Congress. However, after the 2000 plan was 
sent to Congress, the Mayor updated it to include new and 
modified goals. This is typical of the way performance 
measurement efforts work.
    As a result, though, the next performance report is not 
required to show progress toward the new or updated goals. We 
therefore suggest that the District consider the approach that 
many Federal agencies used in reporting on their performance. 
Like the District, Federal agencies found that they needed to 
change their performance goals as they gained experience and 
understanding and new problems arose during the early years of 
their performance measurement efforts.
    In reviewing the performance reports that Federal agencies 
issued under GPRA this last March, we saw examples where 
agencies noted that a goal had been changed from one in the 
original plan and reported progress in meeting the new goal. 
The advantage to this approach is that it helped to ensure that 
the performance reports, by reporting on the agency's actual as 
opposed to discarded goals, were actually providing useful and 
relevant information for congressional and other 
decisionmakers. So, again that is something we think the 
District ought to consider in modeling the Federal approach.
    In summary, Mr. Chairman, the District continues to make 
progress in implementing a more results-oriented approach to 
management accountability throughout the District. Making the 
necessary changes and instilling the new culture requires 
sustained commitment and effort, as the Mayor and other 
District leaders clearly understand. Thus, despite the 
important progress that has been and is being made, ample 
opportunities exist for the District as it moves forward. 
Perhaps foremost among these are: First, continuing to model 
the management practices of high-performing organizations; 
second, ensuring that its daily activities are aligned with its 
goal-setting and performance measurement efforts; third, 
generating performance data that are credible for 
decisionmaking; and fourth, using its performance plans and 
reports to provide Congress with the information and 
perspective Congress needs for effective oversight and 
decisionmaking.
    We look forward to continuing what is already a very 
constructive working relationship that we have with the 
District and we look forward to supporting the District, this 
Subcommittee and others in Congress as we jointly seek to 
ensure that the residents of the District have the world-class 
products and services they so richly deserve.
    I would be happy to answer any questions you may have, sir.
    Senator Voinovich. Thank you, Mr. Mihm. As I mentioned to 
you earlier, I really appreciate GAO helping us in this regard 
and the quick response that you gave to our request to look 
over and give us some information on how you think the District 
is doing on those goals.
    Mr. Mihm. Thank you, sir.
    Senator Voinovich. Mayor Williams.

 STATEMENT OF HON. ANTHONY A. WILLIAMS,\1\ MAYOR, DISTRICT OF 
 COLUMBIA, ACCOMPANIED BY JOHN KOSKINEN, DEPUTY MAYOR AND CITY 
                         ADMINISTRATOR

    Mayor Williams. Mr. Chairman, thank you for the opportunity 
to testify before you today on performance management in the 
District of Columbia. I am glad to have this opportunity to 
detail the progress we are making in the District--progress in 
improving service delivery, accountability and, very 
importantly, the confidence of our citizens.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Williams appears in the 
Appendix on page 36.
---------------------------------------------------------------------------
    When we met in May, I described the components of the 
performance management system that the District implemented 
during the first year and 4 months of my administration, and 
these components included: (1) a citywide strategic plan 
crafted by our citizens to reflect their priorities; (2) 
scorecards that present clear goals and deadlines to the 
public; and (3) agency-specific strategic plans that outline 
fundamental changes in the way each of our agencies would 
conduct business. And individual performance contracts that 
translate our larger citywide plans into tangible personal 
commitments, measures by which I can judge the success of each 
of my cabinet members.
    By utilizing this system of performance management, I 
believe we can make three important changes in the way our 
government operates, changes that will make our government more 
efficient, effective and responsive. Our goals are to instill: 
(1) the values of performance and accountability in the minds 
and day-to-day habits of our employees; (2) improve the quality 
and credibility of our reports and performance data to clearly 
communicate our progress to District Government managers or 
Council, this Congress and, most importantly, the public; and 
(3) incorporate these components into our budget so we allocate 
resources wisely based on our known prior results and clear 
future goals.
    Now, shortly before we met last spring, the U.S. General 
Accounting Office issued its report that assessed our initial 
performance accountability report. The GAO report raised 
several concerns about our system of performance management and 
data tracking. Specifically, those concerns were that the 
District did not: (1) identify managers most directly 
responsible for achieving performance or their immediate 
supervisors; (2) specify two levels of performance for each 
goal; and finally, (3) describe the status of District 
Government activity subject to a court order or the 
requirements placed on the District by the courts.
    Now, during the course of my testimony, I would like to 
address each of these concerns and describe what we are doing 
to improve for the future. The GAO's primary concern was the 
extent to which we complied with congressional reporting 
requirements and we addressed their concern, I believe, through 
four measures: One, identify managers and supervisors 
responsible for achieving each goal in fiscal year 2001; two, 
collaborating with your staff to draft legislation to reconcile 
all congressional and District deadlines; third, eliminating 
the provisions for two levels of performance for each goal; and 
finally, agreeing upon a set of major equity cases that the 
District will include in future performance accountability 
reports until or unless those cases are resolved. And as you 
know, I think, we are in the process of working with plaintiff 
groups, stakeholders and the judges, through our Special 
Counsel to the Mayor for Receivers, to move out of these 
receiverships. So, we are in the process of doing that.
    Now that this system of checks and balances is in place, 
our future performance plans and reports will comply with 
congressional guidelines and will be submitted by the 
deadlines. Now, during the summer we had many conversations 
with officials from the GAO, conversations that proved 
informative and instructive for both parties. Together we have 
addressed the substance of the District's performance 
management system. We have discussed the components we have in 
place, the need for continuous review, the alignment of our 
citywide strategic plan with our individual agency plans, and 
the critical need to improve the quality and credibility of our 
performance data.
    I am pleased to report that we have made important progress 
in each of these areas and, as you suggested, we will be 
providing you further written documentation of what is 
happening. But I would like to briefly say first, in terms of 
components in place, we have created written agency strategic 
plans and performance contracts for agency directors on my 
cabinet. Second, our agency directors have adopted the citywide 
strategic plan as their unifying vision and we are working 
together on cost-cutting initiatives. And third, our agency 
directors will review their strategic plans this fall to 
identify priorities that have changed over the last year to 
extend those plans into fiscal year 2002.
    Our challenge now is to explicitly align these agency plans 
with the citywide strategic plans so each city employee 
understands his or her role in achieving his or her agency's 
objectives in supporting the plan. We have to ensure that all 
District employees, regardless of position, understand that 
they are the people who can improve our government. We also 
must demonstrate to our citizens how day-to-day operations of 
our agencies support the overall plan.
    The GAO's findings during the sampling of our fiscal year 
2000 measures indicate that variations still remain in our data 
and I concur. I am concerned that few agencies provided 
summaries of their own internal data collection and management 
practices regarding the 31 measures the GAO sampled. I also 
know that while many of our agencies have their own internal 
standards, they are not sufficient to pass independent review.
    Now, we are already working to correct this problem. When 
we unveiled our scorecards last spring, I asked publicly for 
the Inspector General to begin to audit selected scorecard and 
performance contract measures for fiscal year 2000. I wanted to 
determine the most common problems, proposed means to address 
them, and ensure that agencies have sufficient internal quality 
controls for success in fiscal year 2001. To ensure we are 
making progress, the Inspector General will audit selected 
performance data prior to the submission of the District's 
fiscal year 2000 performance accountability report to Congress 
in March 2001.
    Plans, goals, and measures alone cannot succeed. For our 
city government to become more self-reliant and self-
sufficient, we have to really change behaviors and beliefs at 
all levels of our government. I have a commitment to create 
accountability among my cabinet and our most senior deputies. 
We need to grow that commitment now among middle managers, 
program managers, and front-line service employees throughout 
the District Government. That is a goal of our newly-launched 
Management Supervisory Service, to provide performance 
incentives to senior and middle managers. Through the D.C. 
Office of Personnel Performance Management Program, we are 
establishing individual performance plans with goals and 
objectives for our agency middle managers and Excepted Service 
personnel throughout our government.
    Among our most critical alignments of all these alignments 
is the alignment of performance goals and agency budget 
submissions. For our performance management system to work, 
there must be a clear link between performance goals and budget 
allocations, between expenditures and end results.
    Each consecutive District budget has improved the 
relationship between resources and results, but we have 
substantial work remaining in this area, as well. Our new 
deputy mayor and city administrator, John Koskinen, and our new 
chief financial officer, Dr. Natwar Gandhi, are working closely 
to ensure that the program and financial staffs are integrating 
performance goals into our agency budget submissions. First, 
our fiscal year 2002 budget instructions will clearly define 
how agencies should relate their goals and measures to 
resources. Second, Mr. Koskinen's experience in general and in 
particular as deputy director for management at OMB will 
enhance, I think, our ability to achieve this goal. While we 
are making progress, I anticipate that it will take another two 
full budget cycles before we have established a lasting and 
durable relationship between financial and performance 
measures.
    Finally, in the area of streamlining agency goals, the 
GAO's review of our 1999 year-end report noted 542 goals in the 
District of Columbia Financial Responsibility and Management 
Assistance Authority's fiscal year 1999 performance 
accountability plan. GAO and the District both felt that was an 
excessive number of goals to effectively manage and track. Yet, 
GAO notes that our fiscal year 2000 plan has 417 and our fiscal 
year 2001 plan may have more.
    I think it is important to note that agencies need to 
identify and focus on core strategic goals. Each agency will 
maintain an internal set of operating measures that support 
strategic goals and many of these will be reflected in the 
directors' performance contracts. However, for the fiscal year 
2002 performance accountability plans, our agencies will be 
more selective in establishing critical goals and measures.
    Now, if I can briefly turn to some of our accomplishments 
on the District's scorecard goals, I would like to highlight a 
few. We set a goal to resurface 150 blocks of streets and 
alleys by August. Not only did we meet that goal, due to some 
contracts we recently put in place with the help of this 
Congress, we expect to add to this accomplishment by 
resurfacing an additional 400 blocks of streets by the end of 
this year.
    We are meeting our commitment to e-government by launching 
five new information and service delivery features on the 
District's web site, which we have also streamlined with a new, 
easier to remember address, WashingtonDC.gov.
    I think you will appreciate this goal, Mr. Chairman, a 
proud citizen of Ohio--we set a goal to replace the lions on 
the Taft Bridge. The lions, which were removed in 1993, held 
great historical significance for the citizens of our city and 
we committed to returning the lions by this July and they were 
indeed returned this summer. Their return, I think, is symbolic 
of a government that is making commitments and keeping 
commitments to our citizens.
    We set a goal of putting 200 more officers on the streets 
by September. We achieved this goal through a number of 
different redeployment and recruitment strategies. Mr. 
Chairman, you already mentioned our redeployment of officers. 
Nearly 1,000 officers assigned to administrative and 
investigative duties are newly assigned to patrol streets in 
uniform one week a month. From the residents' perspective, this 
means more than 150 officers in the neighborhoods across the 
city every day. In addition, we have graduated 84 lateral hires 
from other jurisdictions and 107 new hires, all of whom have 
been assigned to street duty. We also instituted a ``power 
shift'' to put officers on the street during evening and 
nighttime hours and our Mobile Force responds to areas 
experiencing increases in crime.
    In addition to the timely completion of these goals, we are 
also pleased to report that the Department of Motor Vehicles 
has reached one of its performance targets ahead of schedule. 
We made a goal at the beginning of the year that we would 
reduce the time that customers wait in line to 30 minutes or 
less for 80 percent of the driver's license and registration 
transactions by October.
    To show you how these performance goals work, a couple of 
months into the year there were a lot of stories and there was 
a lot of controversy about how the lines were long. We knew the 
lines were long, which is why we made the goal to reduce the 
lines. Well, the fact of the matter is we actually exceeded 
that performance level in May, as 82 percent of wait times were 
less than 30 minutes. But we fell below the 80 percent target, 
and I think part of this performance management system working 
well is fessing up when you have not met a target. We fell 
below that target in the months of June and July as we 
introduced new digital photography technology which, in the 
long run, will pay dividends for our city, as it has for many 
States, by providing more and more online service.
    Now that our DMV personnel are comfortable with the new 
equipment, they met the 80-percent target again in August and I 
anticipate that our DMV will sustain and improve their 
scorecard performance through October and beyond.
    Well, finally, in future revisions to the citywide plan, in 
my staff's discussion with GAO, the evaluators noted that we 
had not directly engaged all the relevant stakeholders in 
reviewing and refining the Citywide Strategic Plan. In 
developing our first citywide plan, we focused our outreach 
efforts on residents of the District. We brought together more 
than 3,000 citizens in November 1999 to share my cabinet's 
draft plan with them. Based on their input, we significantly 
redrafted the plan, allowing citizens of our city to reorient 
our plans and priorities.
    During 2000, however, we will expand our outreach. First, 
we will engage more than 4,000 residents in neighborhood 
planning forums to identify priorities unique to their 
neighborhoods and communities. Second, as we prepare to update 
our citywide plan in the fall of 2001, we will engage a wider 
range of stakeholders in the review process for the strategic 
plan. In addition to our residents, we recognize the role of 
local businesses, our Council, and this Congress in helping the 
District identify and realize its goals.
    Finally, I want to thank the Subcommittee and you, Mr. 
Chairman, in particular, for your support with the Southeast 
Federal Center, with the receivership bill, with performance 
accountability legislation and with the judicial appointments. 
They are all important components of our relationship and, more 
importantly, important components of our bringing the city 
where we all want it to be.
    That concludes my testimony and I would be happy to answer 
any questions you may have.
    Senator Voinovich. Thanks very much. I have just been 
informed that we have got about 10 minutes. And I would rather 
not leave here and then have you waiting for me. You are all 
very busy people. I think there is some good news and bad news. 
Mayor, I think we are impressed with the progress you have 
made. I think that one focal point of this hearing, as far as I 
am concerned, is that in your May 9 testimony, you state that 
among your goals for the year was sustaining progress, ensuring 
valid and reliable data, unifying different plans and bench-
marking progress against other jurisdictions. That is a quote 
from your May 9 testimony.
    Along those lines, the integration of the multiple 
performance documents was one of my primary concerns at that 
hearing. Simply put, there were too many performance documents 
that we were having to contend with. GAO went out again and did 
another study and you heard the testimony. And the District 
still has multiple performance documents that show alarmingly 
little overlap or continuity. There is no system in place to 
measure or verify performance measurement data and the District 
does not yet possess a comprehensive strategic plan that meets 
GAO's standards. They made some recommendations. The Mayor 
should produce one comprehensive, fully-integrated performance 
plan. The city was unable to verify the data used to report on 
the fiscal year performance measures and the District's 
performance plan must provide a sufficient amount of data for 
Congress to conduct adequate oversight.
    I guess what I would like to suggest today is that the 
District sit down with GAO and try to sift through some of this 
information, to see if between now and the end of this year, 
Mayor, some of these concerns that I have and the Subcommittee 
has can be taken care of, so that when you come back again in 
May or thereabouts, that will be something that we will not be 
talking about. Frankly, I do not think I need another hearing, 
but I would like to meet with you and the GAO and your 
management team, to get a report back from you before the end 
of the year, to talk about the stuff that has been brought up 
and how we are going to try to get these things smoothed over 
so that everything is understandable.
    And I think that is really important for your well-being 
and also for our well-being, because if we have another hearing 
next year and we still have four or five different plans and 
the same report back from GAO, it is not going to be good for 
you and, quite frankly, I think this Subcommittee will be 
little bit frustrated. I understand that you have not been on 
the job that long and I know that it takes 3 to 4 years for you 
to make some positive results. On the other hand, I think that 
if you have a clearly defined set of performance goals, where 
it can be--just maybe be one set of them, where you understand 
them, we understand them, your directors understand them, your 
middle managers understand them, and the folks on the street 
understand them, that it will be good for the District and good 
for Congress.
    So, I would respectfully request that you do that. The 
other thing that I would like to suggest to you today--I have 
been through this and first of all I know how you must feel. 
You come in here and you have all kinds of problems and people 
to report to and you have to come back to Congress and go 
through this. I recall when I was mayor of Cleveland we had the 
Financial Supervisory Commission. I used to dread to a certain 
degree those 6-month meetings with my Financial Supervisory 
Commission because they had me on the firing line. That was the 
bad news.
    The good news is that it was kind of a wake-up call for me 
and it was also something I was able to use with my directors 
and the middle managers and say, ``Hey, we have got to 
perform.'' And it was also good for our city council because it 
reminded them of things they had to do in order for us to get 
our job done. So, I hope that you look at this as a positive 
experience. Last, but not least, getting people involved in 
your management team. Have you started any initiatives in the 
area of quality management?
    Mr. Koskinen. Well, I think probably the most significant 
one is the development of the Management Supervisory Service. 
We have slightly more than 900 middle managers in the 
government who ultimately are directly involved with front-line 
employees removing themselves from various employment 
protections. They really are now fully accountable and 
understand that. We are now providing a wide range of training 
and support for them so that they, in fact, will become better 
managers.
    We also are moving aggressively to try to create labor-
management partnerships in the agencies. We want to engage 
managers and front-line employees in jointly trying to figure 
out exactly how to improve the quality of the work place and 
also the quality of the work. I think you cannot successfully 
restructure and re-engineer an operation from the top down. You 
have to find out what is going on in the front lines and engage 
middle managers in the discussion so you have a unified 
approach to improving operations. I think that those 
initiatives, combined together, should give us a higher quality 
of managers. Many think what we should do is get rid of 
everybody and hire new people. There just are not enough new 
people out there and they need training and support as well.
    So, I think we have a good cadre and core of those 
managers, but we have got to provide them training. We have to 
look at the quality of their management, help them look at the 
quality of their employees and help them improve across the 
board.
    Senator Voinovich. Well, I would like to share with you 
some information. I have been trying this last couple of years 
to work with the GAO and some of the Federal agencies in terms 
of training, empowerment and incentives, but, particularly the 
issue of quality management and empowering the employees to 
participate. We had a very successful--and still have in Ohio, 
what we call ``Quality Services Through Partnership.'' And the 
material is really great. I mean, Xerox came in and did it for 
us pro bono, and then we built on that. And we have changed the 
documentation so that it is very relevant to governmental 
employees.
    The fact that we have developed in the State 3,000 teams of 
individuals and departments that are constantly looking at ways 
they can work together as a team to improve their performance. 
So, often the real success of an organization, governmental 
organization, is how ignited are the people that are working in 
these various agencies? My observation has been that too often 
in government they just come to work every day and nobody pays 
attention to what they have to say and they kind of get down on 
themselves. And when they realize that they are important and 
they are being listened to and they are being challenged to 
come up with ways, for example, to do some of the things that 
you would like them to do, rather than have somebody come in 
and say to them, ``This is what you have to do,'' and they look 
at them and say, ``Well, we have been here 15 years and we 
think it might be worthwhile to maybe get our opinion on these 
things''--but I think that is an ingredient that you ought to 
look at in terms of getting this other stuff done, because 
those people on the front-line are the ones that are going to 
make the difference for you in terms of achieving those goals 
that you would like to achieve.
    I will be glad to send that stuff over and would be 
interested in what you think about it.
    Mr. Koskinen. I would be delighted to have it. My 
experience in the private sector, as well as the public sector, 
is that the key, critical ingredient in turning organizations 
around is dealing effectively with front-line employees. As you 
note, this means involving them in the discussions and 
listening to what they have to say. The people who know best 
about why an organization doesn't function, like the managers, 
are the people actually doing the work. So, you are exactly 
right. We would love to have those materials.
    Senator Voinovich. Great. What I would like to do is 
suggest today that before the end of the year I would like to 
get together with you, not at a hearing, but just get together 
and see what progress we have made on some of the things. I 
would like to get your response back in writing to some of the 
suggestions that GAO has made and then come back publicly 
again, maybe in May, and not have this as a subject of the 
discussion. How would that be?
    Mayor Williams. That would be good. I appreciate that.
    Senator Voinovich. Well, I thank you very much for coming 
here this morning and I look forward to continuing to work with 
you, Mayor. As I have said to you, if there is anything you 
need, pick up the phone and call me. And I know you are moving 
forward on that public-private partnership and I am interested 
in pitching in and helping you with that. If they can determine 
some identifiable goals they are committed to, I promise you, 
Mayor, I will go out and try and encourage people from all over 
the United States to come in and be supportive of what you are 
doing, because my goal is your goal.
    I would like to leave this Congress, whenever I leave, and 
be able to say that we are truly the city on the hill and 
something that we can all be proud of. I think that it is not 
only the responsibility of the people in the District, but 
frankly, Mayor, I think it is the responsibility of the 
citizens around this country to make sure that happens and come 
to your help. So, I am here. Thank you very much.
    [Whereupon, at 10:12 a.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8241.001

[GRAPHIC] [TIFF OMITTED] T8241.002

[GRAPHIC] [TIFF OMITTED] T8241.003

[GRAPHIC] [TIFF OMITTED] T8241.004

[GRAPHIC] [TIFF OMITTED] T8241.005

[GRAPHIC] [TIFF OMITTED] T8241.006

[GRAPHIC] [TIFF OMITTED] T8241.007

[GRAPHIC] [TIFF OMITTED] T8241.008

[GRAPHIC] [TIFF OMITTED] T8241.009

[GRAPHIC] [TIFF OMITTED] T8241.010

[GRAPHIC] [TIFF OMITTED] T8241.011

[GRAPHIC] [TIFF OMITTED] T8241.012

[GRAPHIC] [TIFF OMITTED] T8241.013

[GRAPHIC] [TIFF OMITTED] T8241.014

[GRAPHIC] [TIFF OMITTED] T8241.015

[GRAPHIC] [TIFF OMITTED] T8241.016

[GRAPHIC] [TIFF OMITTED] T8241.017

[GRAPHIC] [TIFF OMITTED] T8241.018

[GRAPHIC] [TIFF OMITTED] T8241.019

[GRAPHIC] [TIFF OMITTED] T8241.020

[GRAPHIC] [TIFF OMITTED] T8241.021

[GRAPHIC] [TIFF OMITTED] T8241.022

[GRAPHIC] [TIFF OMITTED] T8241.023

[GRAPHIC] [TIFF OMITTED] T8241.024

[GRAPHIC] [TIFF OMITTED] T8241.025

[GRAPHIC] [TIFF OMITTED] T8241.026

[GRAPHIC] [TIFF OMITTED] T8241.027

[GRAPHIC] [TIFF OMITTED] T8241.028

                                   - 

</pre></body></html>
